Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 1 of 16

USDCSONY
DOCUMENT
ELECTRONICALLY FILED

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK

DOC #:.__________ |___J_____
j DATE FILED:
5\d~5 //?

MICHAEL BINDAY,
Petitioner,

17 Civ. 4723 (CM)
12 Cr. 152 (CM)

-againstUNITED STATES OF AMERICA,
Respondent.

DECISION AND ORDER DENYING PETITIONER’S MOTION TO VACATE, SET ASIDE, OR
CORRECT HIS SENTENCE PURSUANT TO 28 U.S.C. § 2255
McMahon, C.J.:
On October 7, 2013, following a twelve-day jury trial before this Court, Binday and his
two co-defendants were found guilty of conspiracy to commit mail and wire fraud, in violation of
Title 18, United States Code, Section 1349; mail fraud, in violation of Title 18, United States
Code, Section 1341; and wire fraud, in violation of Title 18, United States Code, Section 1343, in
connection with a scheme to defraud insurance companies which the defendants purported to
serve as agents. i
On July 30, 2014, the Court sentenced Binday to 144 months’ imprisonment, to be
followed by three years’ supervised release. The Court also ordered substantial forfeiture and
restitution.
On October 26, 2015, the Second Circuit affirmed the convictions and sentences of
Binday and his co-defendants, directing only a limited remand, at the Government’s request, for

i

Defendants Kergil and Resnick were also found guilty of conspiring to obstruct justice through destruction of
records, in violation of Title 18, United States Code, Section 1512(k) Binday was not charged in that count.
1

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 2 of 16

entry of an amended restitution order in a reduced amount of $37,433,914.17. See United States
v. Binday, 804 F,3d 558, 601 (2d Cir. 2015). On December 14, 2015, the Second Circuit denied
Binday s motions for panel and en banc rehearing. On June 20, 2016, the Supreme Court denied
Binday’s petition for a writ of certiorari. On June 24, 2016, this Court entered the amended
restitution order that the Second Circuit had directed be entered. Shortly thereafter, Binday began
serving his sentence.
On October 2016, three years after the jury’s verdict, Binday filed a motion for a new
trial based on purported “newly discovered evidence” pursuant to Rule 33(b)(1). On August 29,
2017, the Court denied the motion.
On June 20, 2017, Binday filed the instant motion to vacate, set aside or correct
pursuant to 28 U.S.C. § 2255, alleging that he was deprived of his federal constitutional right
to the effective assistance of counsel. On August 17, 2017, the Court issued an Order
requiring the execution of a waiver of the attorney-client privilege by Binday; for the
Government to file its response to the motion within 60 days of defendant’s executed waiver;
and allowing prior counsel to consult with the Government to determine if testimony from
prior counsel is necessary and appropriate. The waiver was executed, an affidavit from trial
counsel was filed, the Government tendered its response opposing the motion, and defendant
replied.
The motion is denied and the petition is dismissed—there is no need for a hearing.2
Binday’s Ineffective Assistance Claims
To establish an ineffective assistance of counsel claim, “a defendant must show: (1) that
counsel’s representation fell below an objective standard of reasonableness; and (2) that there is

2 The Court presumes the reader’s familiarity with the trial evidence and facts of the case.
2

/

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 3 of 16

a reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” United States v. Brown, 623 F.3d 104, 112 (2d Cir. 2010); see
Strickland v. Washington, 466 U.S. 668, 688-89, 693-94 (1984).
With respect to the first element—the “performance” prong—to eliminate the
“distorting effects of hindsight,” Strickland, 466 U.S. at 689, a reviewing court ‘“must
indulge a strong presumption that counsel’s conduct falls within the wide range of reasonable
professional assistance,’ bearing in mind that ‘[tjhere are countless ways to provide effective
assistance in any given case’ and that ‘[e]ven the best criminal defense attorneys would not
defend a particular client in the same way.’” United States v. Aguirre, 912 F.2d 555, 560 (2d
Cir. 1990) (quoting Strickland, 466 U.S. at 689).
Regarding the second element—the “prejudice” prong—a defendant must meet the
“heavy burden” of showing “actual prejudice”; in other words, a defendant “must show that there
is a reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Strickland, 466 U.S. at 692, 694. A defendant cannot
establish prejudice by merely showing that counsel’s errors had “some conceivable effect” on the
result, for “not every error that conceivably could have influenced the outcome undermines the
reliability of the result of the proceeding.” Id. at 693.
To warrant a hearing on an ineffective assistance of counsel claim in a Section 2255
petition, a defendant must show that he has a “plausible” claim of ineffective assistance of
counsel. Armienti v. United States, 234 F.3d 820, 823 (2d Cir. 2000). “Bald allegations”
unsupported by evidentiary facts do not warrant a hearing. Puglisi v. United States, 586 F.3d 209,
213 (2d Cir. 2009) (quoting Newfleld v. United States, 565 F.2d 203, 207 (2d Cir. 1977).
3

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 4 of 16

Trial Counsel
Binday argues that his trial counsel’s performance was constitutionally deficient because
they fundamentally and “obviously” “misunderstood” the law governing mail and wire fraud.
(Mot. at 17). Binday asserts that there were three “permissible defenses” to the fraud charges
against him: “(1) the defendant’s lack of intent to defraud; (2) that any misrepresentations were
not material, and (3) that the misrepresentations could not result in tangible economic harm, or
stated another way, the victim was not deprived of ‘potentially valuable economic
information.’” (Mot. at 10-17). Binday then complains that his trial counsel, instead of crafting a
defense around questions of intent, materiality, and economic harm, erroneously argued only
that there was no “actual economic loss,” even though such a fact “was irrelevant to Mr.
Binday’s case.” (Mot. at 11-17).
It is true that an absence of “actual economic loss” (Mot. at 11) to an Insurer’s bottom
line is not in fact a viable defense to mail or wire fraud, since the Government is not required to
establish that the economic harm that the defendants’ contemplated was in fact realized. See
Binday, 804 F.3d at 569 (“It is not required that victims of the scheme in fact suffered harm, but
‘the government must, at a minimum, prove that defendants contemplated some actual harm or
injury to their victims’” (quoting United States v. Novak, 443 F.3d 150, 156 (2d Cir. 2006)).
But the absence of “actual economic loss,” by itself, was not the gravamen of Binday’s
defense at trial. Rather, as he himself described in his Rule 33 motion, “Binday’s argument at
trial” was “that Prudential and the other insurers had engaged in a wink and a nod practice of
bashing STOLI publicly, while secretly letting such policies ‘slip through the cracks’ so that
they could earn the hefty premiums that the policies generated.” Binday Mem. in Support of
Rule 33 Motion at 13 (“Rule 33 Mem.”) (Dkt. No. 395). Binday’s defense focused on the
4

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 5 of 16

following interrelated propositions: that the defendants’ “conduct was not fraudulent because the
insurers happily issued STOLI policies while paying lip service to weeding out STOL1 policies
for public relations reasons” (i.e., an argument as to materiality and lack of a cognizable scheme
to defraud); and that the defendants “did not intend to inflict, and the insurers had not in fact
suffered, any harm” (i.e., that there was no intent to defraud) because “their deceit had caused
no discrepancy between the benefits reasonably anticipated by the insurers and what they
actually received,” given that there is “no meaningful economic difference between STOLI and
non- STOLI policies” (i.e., that the misrepresentations were not material and that there was no
cognizable economic harm). United States v. Binday, 804 F.3d at 568.
Each reference Binday makes to support his characterization that his defense focused on
a purported lack of “actual economic loss” distorts what the defense in fact argued to the jury:
that, in light of the Insurers’ willingness to accept STOLI policies from the defendants, (1) there
was no cognizable or tangible economic harm, (2) the defendants could not have intended any
such harm, and (3) any misrepresentations made by the defendants were immaterial to the
bargain at hand. These were the legally viable theories of the defense case, which the defense
argued from pre-trial motions to summation. (See, e.g., Binday’s Opposition to Government’s
Motions in Limine and Federal Rule of Evidence 404(b) at 3 (Dkt. No. 233) (noting that the
defendants “intend to present evidence concerning the Insurers’ institutional awareness and
encouragement of the Defendants’ activities to demonstrated not only that the Insurers were not
defrauded, but that there was no scheme to defraud anyone here”). Binday’s attempts to
establish his attorneys’ deficient performance through misleadingly incomplete compilation of
portions of the trial transcript are simply without merit. See United States v. Binday, 12 CR 152
(CM), ECF Document #440, Government Memorandum at 15-20.
5

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 6 of 16

In regard to the Strickland's prejudice prong, Binday asserts that “[tjhere is a substantial
likelihood that the evidence that Mr. Abramowitz neglected to present and the examinations he
failed to conduct would have altered the outcome other case.” (Mot. at 18). Putting aside the fact
that [tjhere is a strong presumption’ that counsel’s attention to certain issues to the exclusion
of others reflects trial tactics rather than ‘sheer neglect,”’ (Harrington v. Richter, 562 U.S. 86,
111-12 (2011) (quoting Yarborough v. Gentry, 540 U.S. 1, 8 (2003))—especially where the
attorney involved is an esteemed criminal defense practitioner and a leader of that Bar—each
example Binday provides to establish prejudice falls far short of the mark.
Binday attaches emails from January and February 2006, between himself and Lily
Levith, Prudential’s Regional Brokerage Director, and argues they should have been introduced
by the defendant to demonstrate that “Binday had no intent to harm the insurance companies
because together they achieved an arrangement that he would continue to produce the [STOLI]
business they wanted privately but could not accept publicly due to purely social and noneconomic concerns.” (Mot. at 20 (citing Pet. Exh. A)).
These emails—sent near the very inception of Binday’s business, when it was “still
ramping up [its] production with Prudential (Pet. Exh. A at 2 (Binday Email dated Jan. 24,
2006))—make no mention whatsoever of STOLI, IOLI, or even premium financing therein.
Although Prudential was aware of STOLI’s existence at this time (cf. Tr. 499 (Avery testimony
that he first became aware of STOLI in approximately 2004 or 2005)), its efforts to combat
STOLI over time evolved, and in April 2007, Prudential started requiring proposed
policyowners to execute a certified statement designed specifically to ensure that STOLI
policies were not issued by the company. (GX 2943 at 6-7 (Policyowner Statement containing
questions to identify STOLI policies); see also id. at 1 (noting that “[mjore recently, there has
6

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 7 of 16

been a proliferation” of STOLI policies “in which the intent, from the outset, is to settle the life
insurance policies ); id. at 4 (noting that Prudential “will not issue insurance if it is determined
that the policy is likely being applied for” STOLI)).
After Prudential imposed the requirement of execution of the Policyowners Statement,
Binday and his co-conspirators continued to execute and submit Prudential applications with
false answers as to these STOLI-related questions, with an aim of collecting commissions on
Binday’s “large case” business by tricking the Insurers into issuing the policies. (See, e.g., GX
112 (Adler Prudential Application, dated Aug. 30, 2017); GX 118, 132 (Prudential Policyowner
Statement for Adler, with “no” answers, dated Jan. 2, 2008); GX 805, 806, 826 (Espinal
Prudential Applications, dated May 29, Sept. 20 and Dec. 14, 2007); GX 825 at 13, 827 at 8
(Prudential Policyowner Statement for Espinal, with “no” answers, dated Sept. 20, 2007); GX
2350 at 25 (Robinson Prudential Application and Policyowner Statement, with “no” answers,
dated Dec. 14 2017)). Against the extensive evidence at trial regarding Binday’s business at
Prudential (including Prudential’s investigation of Binday) in 2007 and 2008, it is evident the
jury would have readily rejected any arguments from Binday based on these early 2006 emails.
Thus, Exhibit A to Binday’s Motion cannot undermine confidence in the verdict against him so
as to establish prejudice.
Binday next points to (speculative and hypothetical) evidence that could have been
presented regarding “Binday’s knowledge of economic similarities between STOLI policies and
other acceptable forms of life insurance,” such as those which use “hybrid premium financing”
and “single premium immediate annuities.” (Mot. at 20). Binday further asserts that “many
carriers, including Lincoln, continued to generate the same business that non-recourse lending
generated, STOLI, by fiction of “hybrid” loans.” (Mot. at 21). Assuming arguendo that there
7

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 8 of 16

were evidence to support these assertions, it would have done nothing to tip the scales in
Binday’s favor at trial.
First, Binday and his co-defendants in essence made this same argument by highlighting
the economic and behavioral similarities between.STOLI policies on the one hand and policies
sold in the secondary life settlements market to argue that the anti- STOLI policies of the
Insurers were fiction. That argument was considered and rejected by the jury.
Second, the overwhelming evidence of the Insurers’ desire not to issue STOLI policies
in particular, so as to warrant the crafting of specific questions designed to weed out and detect
STOLI, would defeat any analogy posited to other types of financing programs. {Cf Pet. Ex. B
at 1-2 (“John Hancock has not approved these ‘hybrid’ arrangements.... We will continue to
see insurance carriers challenge sales where fraud or misrepresentation occurred” and “will
continue to support a limited number of traditional premium financing programs . .. but which
do not present any of the insurable interest issues of IOLI.”)). Thus, these arguments about
Insurers’ acceptance of other forms of insurance do not undermine confidence in the conviction.
Binday next argues that the defense erred in not attacking “the reasonableness of the
insurance companies’ expectations that STOLI policies would potentially cause tangible
economic harm” by failing to cross-examine the Insurance company witnesses “regarding the
basis for their companies’ concerns” or by “present[ing] other evidence that the insurance
companies’ decisions were not adequately informed.” (Mot. at 23). To the extent Binday argues
that counsels’ cross examinations of Messrs. Avery and Bums did not constitute reasonable
performance, he ignores the principle that “[decisions whether to engage in cross-examination,
and if so to what extent and to what manner, are ... strategic in nature.” United States v. Eisen,
974 F.2d 246, 265 (2d Cir. 1992) (quoting United States v. Nersesian, 824 F.2d 1292. 1321 (2d
8

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 9 of 16

Cir.), cert, denied, 484 U.S. 957 (1987)). Defense counsel can hardly be faulted for declining to
attempt to establish that the views of the two insurance company witnesses—one with four
decades and the other with a quarter century’s worth of insurance and actuary experience (Tr.
493, 630-31)—regarding STOLI were “entirely unreasonable or idiosyncratic” (Mot. at 23).
What the defense did accomplish on cross-examination was attempt to undermine the
insurance company witnesses’ assumptions regarding the economic impacts of STOLI. For
instance, Mr. Abramowitz elicited from Michael Bums that he believed the most significant
IOLI risks were social, legal, and tax-related,” and not “economic,” and that any such
economic impact would be “difficult to estimate” and “minor” (Tr. 699-702). Mr.
Abramowitz also introduced evidence through Bums that Lincoln was “exploring
opportunities to leverage [its] mortality and risk management expertise into new,
nontraditional businesses” such as life settlements to “provid[e] institutional investors with
opportunity for attractive returns,” (Tr. 722-23 (DX 13)) and that there would be little
difference in the economic consequences to Lincoln of a STOLI policy versus a life
settlement policy sold immediately upon issuance (Tr. 727-31). Further, Mr. Abramowitz
elicited that, in October of 2008, Bums had concluded that “STOLI activity ha[d] not had an
adverse impact on [Lincoln’s] mortality experience” (Tr. 731-32 (GX 2972 at 3)).
In regard to James Avery, after the Government had established on direct examination
that the pricing of insurance policies at Prudential was based on “historical experience of’ the
performance of “classic,” non-STOLI policies (Tr. 505), Mr. Abramowitz elicited on crossexamination that, if STOLI policies had in fact been issued by Prudential, it would have
resulted in changes to product pricing to reflect the performance of STOLI within the pool.
(Tr. 544). Mr. Abramowitz further established through Mr. Avery that Prudential did not
9

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 10 of 16

vary the cost of its insurance depending upon the intent of the insured to sell, premium
financing, the purpose behind the purchasing of the insurance, and whether other applications
were pending—each indicia of STOLI policies. (Tr. 547).
All those points were artfully elicited by Mr. Abramowitz to illustrate the difficulty of
establishing “tangible economic harm” resulting to the insurance companies from the
defendant’s scheme. Defendant certainly suffered no prejudice from Mr. Abramowitz’s
choice in strategy.
Finally, Binday faults his defense counsel for failing to call him as a witness at trial. Mr.
Abramowitz says in his affidavit that he and others at his firm, “advised [Binday] of his right to
testify on his own defense on numerous occasions,” and spelled out the “the potential benefits
of his testimony as well as the significant potential risks associated therewith," including
warning him “that his testimony could significantly jeopardize his credibility with the jury.”
(Abramowitz Aff.

3-4 (Dkt. No. 439)). These risks included being “confronted with the

numerous false statements set forth in the insurance applications,” as well as “the statements he
made under oath during his testimony before the New York State Insurance Department.” {Id. ^
4 (citing Order (Aug. 29, 2017) (Dkt. No. 431) (noting that Mr. Binday “lied under oath when
the state authorities got involved.”).
To the extent that Binday believes these risks attendant to his decision to testify could
have been mitigated by the introduction of a purported prior consistent statement that was
recorded between Binday and the family member of an insured’s family member regarding his
beliefs on lapse rates and economic harm (Mot. at 22 (citing Pet. Ex. C at 17)), that argument
too fails. The statement—assuming it would have been admitted—would more likely have been
viewed by the jury as a self-serving falsehood pitched by Binday to a straw insured’s family
10

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 11 of 16

member to convince them that the scheme was not in fact fraudulent.
This lack of prejudice is underscored by the fact that both of Binday’s co-defendants
relied for their defenses on similar self-serving lies to establish lack of intent. Both failed to
impress the jury.
James Kergii relied on testimony from cooperating witness Paul Krupit, to the effect that
Kergil told Krupit that the insurance companies had wanted to issue STOLI, and insurers’
financial statements indicating that universal life sales increased dramatically during the period
that STOLI was popular, in arguing that the proof as to intent was insufficient at trial. See
Binday, 804 F.3d at 580. In rejecting this argument, the Second Circuit noted that “[djespite
Kergil’s unsupported and self-serving statement to Krupit, the jury was certainly entitled to
infer, based on [anti-STOLI] certifications and other facts of the case, that Kergil was aware
that the insurers did not want to issue STOLI policies, and that he intended that the numerous
misrepresentations in the applications would cause the insurers to do so against their wishes.”
Id.
Similarly, Kevin Resnick’s counsel argued in summation that Resnick lacked requisite
intent, as evidenced in part by Krupit’s testimony that Resnick had told Krupit that “[t]he
insurance companies wanted these policies and turned a blind eye to all the red flags popping up
in the policies ... because they knew the truth. They knew that it was STOLL” (Tr. 1491). The
jury, in convicting Resnick on all counts, necessarily rejected this argument too.
Far from a strategic error, defense counsel’s advice to Binday about the negative
consequences of his taking the stand, and the risk that he would be confronted with his systemic
and repeated pattern of lies (on applications, to Straw Insureds, and under oath to a regulatory
body), was sound and reasonable. That Binday now regrets taking his lawyers’ sound advice in
tl

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 12 of 16

no way undermines the Court’s confidence in the jury’s verdict.
Binday’s Sentencing Counsel
Binday argues that Mr. Frisch was constitutionally ineffective by “fail[ing] to properly
challenge the Government’s calculation of actual loss” in two ways. (Mot. at 26). First, Binday
faults Mr. Frisch for failing to pursue an evidentiary hearing so that he could challenge the
Government’s decision to include loss from “insurance companies for which there was no
evidence at trial that Mr. Binday intended to deprive them of ‘potentially valuable economic
information.’” (Mot. at 29). Second, Binday asserts that it was unreasonable for Mr. Frisch not
to have retained an actuary to determine a “reasonable alternative to the Government’s actual
loss calculation.” (Id).
It is well-established that a defendant’s counsel may properly decide to forego a Fatico
hearing as a reasonable, tactical “matter of strategy,” United States v. Lee, 818 F.2d 1052,1056
(2d Cir. 1987); see also United States v. Costa, 423 Fed.Appx. 5, 8-9 (2d Cir. 2011) (summary
order) (decision not to request a Fatico hearing fell “within the range of reasonable professional
assistance”); United States v. Santiago, 330 F. App’x 234, 238-39 (2d Cir. 2009); Brito v.
United States, No. 13 Cr. 589 (PKC), 2017 WL 3142074, at *3 (S.D.N.Y. July 24, 2017)
(collecting cases); Papetti v. United States, No. Civ. 09-3626 (DRH), 2010 WL 3516245, at *6
(E.D.N.Y. Aug. 31, 2010) (“[T]he decision to forego a Fatico hearing is a matter of strategy
and [a court will] presume that such a strategy is sound absent a strong showing to the
contrary.”) (internal quotation marks and citations omitted).
In this case, Binday’s sentencing counsel prepared a thorough and well-reasoned
sentencing memorandum, vigorously arguing for a non- incarceratory or short period of
imprisonment. (See Dkt. No. 327). In support, he argued that there was no causal link between
12

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 13 of 16

the “idiosyncratic fraud at issue” and the economic harm as reflected in the Government’s loss
calculations. (See id. at 2-25). And, with regard to the actual loss calculation, Mr. Frisch argued
specifically that the Government, by “excluding policies still in force on which the owners are
still paying premiums, and may continue to do so for years,” arrived at an “artificially high”
loss amount by “excluding] the most profitable period of life insurance” during which an
Insured “exceeds his or her life expectancy.” (Id. at 13). Mr. Frisch also argued, among other
things, that the Government erred in calculating loss on a policy-by- policy basis instead of
looking at the pool as a whole (id. at 21-22), and argued that the Government’s calculation of
actual and intended loss did not adequately account for the investment returns from premiums
paid (id. at 22-23). Binday cannot simply point to Mr. Frisch’s failure to ask for an evidentiary
hearing as evidence of his deficient performance, in light of the many ways in which Mr. Frisch
argued against the Government’s method in calculating loss by way of his papers, and at the
sentencing itself.
But assuming arguendo that Mr. Frisch’s failure to request a Fatico hearing could be
construed as unreasonable, Binday cannot sustain his claim in light of the absolute absence of
what evidence, if any, a Fatico hearing might have established, so as to constitute prejudice to
him. See United States v. Costa, 423 F. App’x 5, 8-9 (2d Cir. 2011). The crux of Binday’s
argument appears to be that, had sentencing counsel requested a Fatico hearing, he might
have been able to elicit evidence that seven insurance companies (other than Prudential and
Lincoln) may have not have been deprived of economically valuable information or exposed
to economic risk as a result of the defendants’ scheme. Binday, however, does not suggest
what a “reasonable” actual loss calculation would have been. Cf. Binday, 804 F.3d at 597
(“Notably, the defendants have not offered an alternative calculation for actual loss, nor is one
13

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 14 of 16

readily apparent.”). Indeed, Binday’s failure to establish prejudice beyond mere hypothesis is
evidenced by the conditional way in which his argument is couched: “//'an insurance
company did not believe the issuance of STOLI policies could result in tangible economic
harm or if it did not otherwise use the financial information in pricing its policies, any loss
incurred could not be part of [Binday’s] scheme.” (Mot. at 28).
But the Government established at trial, through the testimony of Messrs. Avery and
Bums and through documents, that the insurance industry as a whole did not want STOLI.
(See, e.g., Tr. 496-97 (Avery, noting from his capacity at Prudential as well as his role on the
American Council of Life Insurance Committee, that “the industry, as they began to
understand it,... never wanted to issue a STOLI policy”); Tr. 536 (Avery noting that
National Council of Life Insurance Legislators and the National Association of Insurance
Commissioners had passed model regulation to make STOLI illegal)). And although the
Government did limit its testimony to two industry witnesses (Prudential and Lincoln) at trial,
it introduced corporate policy statements, not only from those two companies (GX 2922,
2943), but also from AIG (GX 2904), Hancock (GX 2915), and Union Central (GX 2951). It
also introduced the STOLI-targeted questions used by each of nine Insurers, to which the
defendants supplied false answers. (See,e.g., GX 413 at 13 (Security Mutual questions); GX
531 at 5-6, 12-13 (Sun Life questions); GX 541 at 13 (AIG questions); GX 605 at 1-2
(Lincoln questions); GX 650 at 13 (Union Central questions); GX 1324 at 2-4, GX 1325 at 67 (AXA questions); GX 2000 at 2, 9, 16 (Hancock questions); GX 2350 at 25 (Prudential
questions)). This evidence was more than sufficient for the Government to meet its burden to
prove that the scheme included all nine Insurers by a preponderance for purposes of
sentencing. It also establishes that Binday’s assertion of prejudice on this score is nothing
14

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 15 of 16

more than hypothetical speculation.
Indeed, it is equally plausible that, had sentencing counsel insisted on a Fatico hearing,
testimony and further evidence from the seven other Insurance companies might have yielded
evidence supporting an even greater loss amount. For instance, certain of the Insurers had taken
the position prior to sentencing that they were entitled to estimated losses based on in-force
policies (see Gov’t Sentencing Submission at 58 n.28). The Government—“unaware of
precedent for awarding projected losses in [such] circumstances”—did not pursue this measure
of loss at sentencing. Id. Had counsel insisted on a Fatico hearing, these additional losses may
very well have been back on the table, exposing defendant to even greater loss amounts. As
such, defense counsel cannot be faulted for declining to rolling the dice in this regard, especially
when, as the Second Circuit noted on appeal, there are no “readily apparent” alternative
measures of actual loss. See generally Greiner v. Wells, 417 F.3d 305, 319 (2d Cir.2005) (“We
will not normally fault counsel for foregoing a potentially fruitful course of conduct if that
choice also entails a significant potential downside.” (internal quotation marks omitted)).
Similarly, Binday cannot find Strickland fault or prejudice in his sentencing counsel’s
failure to hire an actuary. He has simply failed to establish that such testimony would have
resulted in a different actual loss calculation so as to have impacted his sentencing or undermine
confidence in his sentence.
Finally, even if Binday could do more than speculate as to whether either a Fatico
hearing or an actuary would have resulted in a different Sentencing Guidelines range, Binday
cannot establish any prejudice with regard to his sentence, because the Court in this case
sentenced the defendants “the old-fashioned way” without regard to the loss amounts calculated
for the Guidelines. (Sentencing Tr. 41-42 (the Court noting “[fjorget about the amount of fraud
15

Case l:12-cr-00152-CM Document 448 Filed 05/23/18 Page 16 of 16

loss, whatever it was or will turn out to be; in the end, this was a scheme perpetrated over a span
of years, brazen .. . and characterized by truly horrible behaviors on the defendants’ part”); see
also id. at 11 (noting that this case is “a perfect example of why [the Guidelines] should be
abolished” in light of “[t]he amount of time, the amount of money, the amount of effort that has
been expended arguing about the guidelines and how they should be calculated instead of
arguing about Mr. Binday”); id. at 40 (describing case as, after “long time discussing the
calculation,” one that proves the “idiocy” of the Guidelines). As this Court made clear in
fashioning Binday’s sentence, “[t]he fact that the nominal victims here are major insurance
companies does not and ought not lessen the disgust with which we view the defendants’
behavior.” (Id. at 43). Indeed, the Second Circuit, in reviewing defendant’s sentence, took
“comfort in the district court’s emphatic statement that it would have imposed the same
sentence regardless of the loss amount, which renders any error in the loss calculation
harmless.” 804 F.3d at 598.
The motion is denied and the petition is dismissed.
The Court declines to issue a certificate of appealability because there has been no
“substantial showing of the denial of a constitutional right.” 28 U.S.C. Section 2253(c)(2); see
United States v. Perez, 129 F.3d 255, 260 (2d Cir. 1997). Further, the Court finds, pursuant to 28
U.S.C. Section 1915(a) (3) that any appeal from an order denying Binday’s motion would not be
taken in good faith. See Feliz v. United States, W02 WL 1964347, at *7 (S.D.N.Y. 2002).
This constitutes the decision mi order of the court.
May23, 2018
Chief District Court Judge

16

Case 18-2143, Document 80, 05/06/2019, 2556004, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
6th day of May, two thousand nineteen.

Michael B inday,
Petitioner - Appellant,
v.

ORDER

United States of America,

Docket No: 18-2143

Respondent - Appellee.

Appellant, Michael Binday, filed a motion for panel reconsideration, or, in the alternative,
for reconsideration en banc. The panel that determined the appeal has considered the request for
reconsideration, and the active members of the Court have considered the request for
reconsideration en banc.
IT IS HEREBY ORDERED that the motion is denied.

FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

MANDATE

1/720Bte<2

23/ASP sfSageDl rif 1

S.D.N.Y. - N.Y.C.
17-CV-4723
12-cr-152
McMahon, C.J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 15 th day of January, two thousand nineteen.
Present:
Robert A. Katzmann,

USDC SD'NY
DOCUMENT
ELECTRONICALLY'FILED
DOC _________
DATE FILED: May 13 2019

ChiefJudge,
Peter W. Hall,
Gerard E. Lynch,
Circuit Judges.

Michael Binday,
Petitioner-Appellant,
v.

18-2143

United States of America,
Respondent-Appellee.

Appellant moves for a certificate of appealability. Upon due consideration, it is hereby
ORDERED that the motion is DENIED and the appeal is DISMISSED because Appellant has not
“made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c); see
also Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

A True Copy
Catherine O'Hagan W

terk

United States Couid 0t Appea ",'Second Circuit
J SECOND
CWT

MANDATE IS

N 05/13/2019

